           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


     UNIVERSITIES’ USE OF SOCIAL
    SECURITY NUMBERS AS STUDENT
       IDENTIFIERS IN REGION II


     July 2005    A-02-05-25104




 AUDIT REPORT
                                   Mission

We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                           SOCIAL SECURITY
MEMORANDUM

Date:   July 27, 2005                                                                     Refer To:

To:     Beatrice M. Disman
        Regional Commissioner
         New York

From:   Inspector General

Subject: Universities’ Use of Social Security Numbers as Student Identifiers in Region II
        (A-02-05-25104)


        OBJECTIVE

        Our objective was to assess universities’ use of Social Security numbers (SSN) as
        student identifiers in Region II and the potential risks associated with such use.1

        BACKGROUND

        Millions of students enroll in educational institutions each year. To assist in this
        process, many colleges and universities use students’ SSNs as personal identifiers.
        The American Association of Collegiate Registrars and Admissions Officers found that
        almost half (1,036) of member institutions that responded to a 2002 survey used SSNs
        as the primary student identifier.2

        The potential for identity theft increases each time an individual’s SSN is divulged.
        Recent incidents of identity theft at universities have led some schools to reconsider the
        practice of using SSNs as the primary student identifier. However, at many universities,
        students continue to be identified by their SSN.

        The Privacy Act of 1974, Family Educational Rights and Privacy Act (FERPA), Social
        Security Act, and New York State Educational Law contain provisions that govern
        disclosure and use of SSNs. For example, FERPA requires that educational
        institutions, which receive funds under an applicable program of the U.S. Department of
        Education, have written permission from the parent or eligible student to release or
        display any personally identifiable information from a student’s education record.

        1
            Region II consists of New York, New Jersey, Puerto Rico and the U.S. Virgin Islands.
        2
         Academic Transcripts and Records: Survey of Current Practices, April 2002 Special Report, the
        American Association of Collegiate Registrars and Admissions Officers.
Page 2 – Beatrice M. Disman


Similarly, the New York State Educational Law prohibits, in most cases, universities in
New York State from displaying SSNs on students’ public listing of grades, class rosters
or other lists provided to teachers; student identification (ID) cards; or in student
directories or similar listings.3 See Appendix B for more information on specific legal
provisions.

We selected a sample of seven universities in Region II.4 For each selected school, we
interviewed university personnel and reviewed school policies and practices for the use
of SSNs. We also coordinated with the Social Security Administration’s Office of
General Counsel and the Department of Education’s Office of the Inspector General for
further clarification on laws related to universities’ use of SSNs. See Appendix C for a
full description of our scope and methodology.

RESULTS OF REVIEW
Our review showed that the SSN was the primary method of student ID for four of the
seven universities we selected. We also identified three universities in the region that
did not use the SSN as the primary student identifier. The use of the SSN as the
primary student identifier made the SSN vulnerable to risk of identity theft.

FOUR UNIVERSITIES USED THE SSN AS PRIMARY STUDENT IDENTIFIER

Despite the increasing threat of identity theft, officials from four universities stated that
their schools used the SSN as the primary student identifier. Two examples follow.

•     ID Cards: Officials from three of the four universities stated the SSN appeared on
      student ID cards. One university official stated that students’ SSNs were displayed
      on the back of ID cards. In general, the student SSN was also printed on receipts
      from the library and bookstore and on overdue book notices that were mailed to
      students.

•     Postcards: Officials from three universities stated that SSNs were collected on
      postcards. The postcards were sent to students from their respective schools to
      obtain information.

In addition, we found that officials from each of the four universities stated the SSN was
used to access the Internet and/or other computer systems. Although the Internet and
most computer systems use an encryption to prevent identity theft, it is still possible the
system could be hacked into. Additionally, in some cases, forms that were accessible
to students in the universities’ computer systems clearly displayed students’ SSNs when
they were printed.

3
 New Jersey has also enacted a similar law restricting universities’ use of SSNs, which will become
effective January 26, 2006. See Appendix B for more information on this specific legislation.
4
    The term “universities” will be used to include both colleges and universities.
Page 3 – Beatrice M. Disman


When asked why the SSN was used as a student identifier, some officials informed us
they were unaware of any legislation limiting the use of the SSN. Those who were
aware of legislation cited the cost of converting to a new identifier system as a barrier.
One official stated that plans to eliminate the use of SSNs as the primary student
identifier have been addressed but have not yet been formally adopted. The clear
display of students’ SSNs on cards and documents that may have been seen and
accessed by other individuals made the number vulnerable to identity theft.

THREE UNIVERSITIES DID NOT USE THE SSN AS PRIMARY STUDENT
IDENTIFIER

Our review found that three universities did not use the SSN as the primary student
identifier. An official from one of the universities in New Jersey selected for our review
stated they no longer used the SSN as the primary student identifier. New York has
enacted a law that regulates universities’ SSN use. The New York State Education
Law5 prohibits the display of a student’s SSN on “…public listing[s] of grades, on class
rosters or other lists provided to teachers, student identification cards, [and] in student
directories or similar listings…unless specifically authorized or required by law....”
Accordingly, the two universities in New York did not use the SSN as the primary
student identifier.

In previous preliminary research conducted by the Office of the Inspector General,
which did not result in an audit report, one of the universities selected in
New York State for our review requested students’ SSNs on postcards. The university
has changed this practice. A university official stated that the SSN was no longer
requested on postcards.

The same official informed us the university did not use the SSN as the primary student
ID. The university uses a computer-generated student ID number as a primary student
ID. When registering for classes, students use a logon ID and password. The last six
digits of the SSN is the initial password, but students are prompted to change this at the
first logon. The same course of action applies when students initially access on-line
services. However, the requirement to enter the last six digits of the SSN will be
eliminated when the university’s new Student Information System is implemented,
tentatively scheduled for 2007. Although, the school’s undergraduate and graduate
admission applications request the SSN, we noted that providing an SSN was not
mandatory for admission.

An official at the other New York State university stated that the school did not use the
SSN as the primary student identifier. Specifically, a new system of ID was
implemented in November 2002. This conversion was done to comply with the New
York State Education Law regarding the use and display of the SSN. The system
generates ID numbers for students. According to university personnel, these ID
numbers are called X-numbers (eight-digit ID numbers beginning with the letter X).

5
    NY CLS Edu § 2-b.
Page 4 – Beatrice M. Disman


All university employees and students have X-numbers for ID. On-line services at the
university do not require the student’s SSN. The SSN appears as an asterisk on the
form for requesting transcripts.

CONCLUSION AND RECOMMENDATIONS

We found that SSNs were vulnerable to identity theft at four of the universities we
contacted since they used the SSN as a primary student ID. The schools used the
SSNs in ways that potentially exposed them to individuals other than the
numberholders. While we recognize the Social Security Administration cannot directly
prohibit universities from using SSNs, it can help reduce potential threats by
encouraging schools to limit SSN use. Additionally, the Department of Education’s
Family Policy Compliance Office provides technical assistance to universities covered
by FERPA to ensure compliance with the Act. The Social Security Administration could
work with the Family Policy Compliance Office to help better educate universities that
appear to be in noncompliance with FERPA.

Accordingly, we recommend that the Regional Commissioner:

1. Contact the universities that used the SSN as the primary student identifier, and
   others in the region, to educate the community about the potential risks associated
   with using SSNs as student identifiers.

2. Ask the Department of Education’s Family Policy Compliance Office to assist those
   universities in Region II that use the SSN as the primary student identifier to ensure
   they are complying with FERPA.

AGENCY COMMENTS

The Agency agreed with our recommendations and has initiated corrective actions. The
Agency’s comments are included in Appendix D.




                                                S
                                                Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Federal and State Laws that Govern Disclosure and Use of the
             Social Security Number
APPENDIX C – Scope and Methodology
APPENDIX D – Agency Comments
APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                          Appendix A

Acronyms
C.F.R.        Code of Federal Regulations
FERPA         Family Educational Rights and Privacy Act
ID            Identification
OIG           Office of the Inspector General
Pub. L. No.   Public Law Number
SSN           Social Security Number
U.S.C.        United States Code
                                                                                   Appendix B

Federal and State Laws that Govern Disclosure
and Use of the Social Security Number
The following laws establish a general framework for disclosing and using the Social
Security number (SSN).

The Privacy Act of 1974 (5 U.S.C. § 552a; Pub. L. No. 93-579, §§ 7(a) and 7(b)

The Privacy Act of 1974 provides that it is unlawful for a State government agency to
deny any person a right, benefit, or privilege provided by law based on the individual’s
refusal to disclose their SSN, unless such disclosure was required to verify the
individual’s identity under a statute or regulation in effect before January 1, 1975.
Further, under Section 7(b), a State agency requesting that an individual disclose their
SSN must inform the individual whether the disclosure is voluntary or mandatory, by
what statutory or other authority the SSN is solicited, and what uses will be made of the
SSN.

The Family Educational Rights and Privacy Act (20 U.S.C. § 1232g; 34 C.F.R. Part 99)

The Family Educational Rights and Privacy Act (FERPA) protects the privacy of student
education records. FERPA applies to those schools that receive funds under an
applicable program of the U.S. Department of Education. Under FERPA, an
educational institution must have written permission from the parent or eligible student
to release any personally identifiable information (which include SSNs) from a student’s
education record.6 FERPA does, however, provide certain exceptions in which a school
is allowed to disclose records without consent. These exceptions include disclosure
without consent to university personnel internally who have a legitimate educational
interest in the information, to officials of institutions where the student is seeking to
enroll/transfer, to parties to whom the student is applying for financial aid, to the parent
of a dependent student, to appropriate parties in compliance with a judicial order or
lawfully issued subpoena, or to health care providers in the event of a health or safety
emergency.




1
  FERPA gives parents certain rights with respect to their children’s education records. These rights
transfer to the child when the child reaches the age of 18 or attends an institution of postsecondary
education. Children that have been transferred these rights are referred to as “eligible students.”


                                                        B-1
The Social Security Act

The Social Security Act states, “[s]ocial security account numbers and related records
that are obtained or maintained by authorized persons pursuant to any provision of law,
enacted on or after October 1, 1990, shall be confidential, and no authorized person
shall disclose any such social security account number or related record.” (42 U.S.C. §
405(c)(2)(C)(viii)). The Social Security Act also states, “…[w]hoever discloses, uses, or
compels the disclosure of the social security number of any person in violation of the
laws of the United States; shall be guilty of a felony…” (42 U.S.C. § 408(a)(8)).

New York Education Code (NY CLS Edu § 2-b.)

Use of student SSNs is restricted. “No public or private… [university] shall display any
student’s social security number to identify such student for posting or public listing of
grades, on class rosters or other lists provided to teachers, on student identification
cards, in student directories or similar listings, or, unless specifically authorized or
required by law, for any public identification purpose.”

New Jersey Annotated Statutes (N.J. Stat §18A:3-28)

Use of student SSNs is restricted. “No public or independent institution of higher
education in the State shall display any student’s social security number to identify that
student for posting or public listing of grades, on class rosters or other lists provided to
teachers, on student identification cards, in student directories or similar listings, unless
otherwise required in accordance with applicable State or federal law.” This law
becomes effective January 26, 2006.




                                                 B-2
                                                                        Appendix C

Scope and Methodology
To accomplish our objective, we:

•   interviewed selected university personnel responsible for student
    admissions/registrations;

•   reviewed Internet websites of seven universities that we either visited or interviewed
    by telephone;

•   reviewed applicable laws and regulations;

•   reviewed selected studies, articles and reports regarding universities’ use of Social
    Security numbers (SSNs) as student identifiers;

•   coordinated with the Social Security Administration’s Office of General Counsel in
    Region II and the Department of Education Office of the Inspector General to further
    clarify use of SSNs as a primary student identifier as it relates to universities.

We visited two universities and conducted telephone interviews with officials at five
other universities to assess their uses of the SSNs as student identifiers. The scope of
our audit was to select two universities in each area of Region II. In each area,
1 university had an enrollment of 15,000 or more students, and the other had an
enrollment of 14,999 or less. Our review of internal controls was limited to gaining an
understanding of universities’ policies over the collection, protection, use and disclosure
of SSNs. We conducted our field work from December 2004 through February 2005.
Our audit was conducted in accordance with generally accepted government auditing
standards.
                  Appendix D

Agency Comments
                                          SOCIAL SECURITY

MEMORANDUM


Date:       July 14, 2005                                                          Refer To: S2D2

To:         Inspector General
From:       Regional Commissioner
            New York
Subject:    OIG Draft Report On Universities’ Use Of Social Security Numbers As Student Identifiers in
            Region II, Audit No. 22005016 – REPLY

           We have reviewed the draft report and are in agreement with the recommendations made by the
           OIG. Following are our actions to date:

           Recommendation 1: Three of the universities that used the SSN as the primary student
           identifier are located in Puerto Rico and the fourth is in New Jersey. We have asked our Area
           Directors for those geographic areas to initiate our efforts to meet with the universities.

           Recommendation 2: We will ask, if necessary, the Department of Education’s Family Policy
           Compliance Office to assist those universities that use the SSN as the primary student identifier
           to ensure they are complying with FERPA.

           Should your staff have any questions, they may contact Dennis Mass, Director, Center for
           Programs Support at 212 264-4004.



                                                                       /s/
                                                                Beatrice M. Disman
                                                                      Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Tim Nee, Director, (212) 264-5295

   Vicki Abril, Lead Auditor, (212) 264-0504

Acknowledgments

In addition to those named above:

   Abraham Pierre, Auditor in Charge

   Denise Molloy, Program Analyst

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification
Number A-02-05-25104.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Executive Operations (OEO). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                  Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                               Office of Executive Operations
OEO supports OIG by providing information resource management and systems security. OEO
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, OEO is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
